APPENDIX A

App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-20341
-----------------------------------------------------------------------

OSCAR ERNESTO MELENDEZ,
Plaintiff - Appellant
v.
KEVIN K. McALEENAN, ACTING SECRETARY,
U.S. DEPARTMENT OF HOMELAND SECURITY;
LEE CISSNA, United States Citizenship and
Immigration Services Director; MARK SIEGL,
Field Office Director,
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

(Filed Jun. 27, 2019)
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.
LESLIE H. SOUTHWICK, Circuit Judge:
Oscar Ernesto Melendez filed suit seeking a declaratory judgment that the Department of Homeland
Security had improperly denied his application to adjust his status to that of a legal permanent resident.
The district court dismissed his complaint for lack of
jurisdiction. The government now concedes there was

App. 2
jurisdiction but urges we deny relief. Though there is
jurisdiction, Melendez benefits little because we also
conclude he did not state a legally cognizable claim.
The district court’s ruling is VACATED, and the complaint is DISMISSED.
FACTS AND PROCEDURAL HISTORY
Melendez, a native and citizen of El Salvador, entered the United States in February 2000 on a onemonth nonimmigrant visitor visa. Melendez did not
leave the United States after one month or at any
later time either. In March 2001, the Attorney General
designated El Salvador for Temporary Protected Status (“TPS”). As long as El Salvador is so designated,
the special status for Melendez continues. See United
States v. Orellana, 405 F.3d 360, 366 (5th Cir. 2005).
Melendez filed for TPS in August 2001 and had it
granted, but the record does not show the date of its
grant. From the expiration of his visa in March 2000 to
the award of TPS sometime in late 2001, Melendez was
an alien unlawfully present in the United States.
We do not have the documentation, but Melendez
states (and the government does not dispute) that he
has an approved I-130 Petition for Alien Relative filed
by his United States citizen brother, and that his visa
priority date is in 2003. In July 2016, Melendez filed
a Form I-485 with the United States Citizenship and
Immigration Services (“USCIS”) seeking adjustment
of his status to that of a lawful permanent resident
and stated that an immigrant visa was immediately

App. 3
available. See 8 U.S.C. § 1255(a). USCIS denied his application in September 2017. It determined he could
not adjust his status because from the date his visitor
visa expired, March 2000, until his filing for TPS, August 2001, Melendez was not lawfully present in the
United States.
In November 2017, Melendez filed suit in the
United States District Court for the Southern District
of Texas against the Secretary of the Department of
Homeland Security (“DHS”) and two individuals in
their official capacities with USCIS. To be clear, this
suit does not concern Melendez’s imminent removal
from the United States. He seeks a declaratory judgment that USCIS erred in its denial of his adjustment
application. Melendez claimed both general federal
question jurisdiction under 28 U.S.C. § 1331 and a
right to sue under the Administrative Procedure Act,
5 U.S.C. §§ 701-706. The district court granted the government’s motion to dismiss for lack of jurisdiction.
Melendez timely appealed.
DISCUSSION
I.

Absence of Jurisdiction and Failure to State
a Claim

The government moved for dismissal based on an
absence of jurisdiction under Federal Rule of Civil Procedure 12(b)(1) and alternatively for failure to state a
claim under Rule 12(b)(6). The district court held it
lacked jurisdiction due to 8 U.S.C. § 1252(a)(2)(B)(i)
and did not reach the merits question. Section

App. 4
1252(a)(2)(B)(i) strips federal courts of jurisdiction to
review “any judgment regarding the granting of relief
under,” among others, Section 1255, which is the statute applicable to an adjustment of status. On appeal,
the government abandons the argument that there is
no jurisdiction, acknowledging one of our decisions in
which we held the bar to reviewing a “judgment regarding the granting of relief ” applies only to discretionary decisions. Mireles-Valdez v. Ashcroft, 349 F.3d
213, 215-16 (5th Cir. 2003). A decision as to “whether
an alien satisfies the continuous presence requirement
is a nondiscretionary determination.” Id. at 217. We
hold, then, that the denial of Melendez’s adjustment
application was a nondiscretionary decision based on
the finding he was statutorily ineligible, making Section 1252(a)(2)(B)(i)’s jurisdictional bar inapplicable.
On appeal, the government again argues Melendez
fails to state a claim and that we should affirm the dismissal of his complaint. Though the only ruling by the
district court was based on jurisdiction, “[w]e are free
to uphold the . . . judgment on any basis that is supported by the record.” Zuspann v. Brown, 60 F.3d 1156,
1160 (5th Cir. 1995). We now turn to whether Melendez
has stated a claim.
Had the district court relied on this basis to dismiss, we would review de novo. Mowbray v. Cameron
Cnty., 274 F.3d 269, 276 (5th Cir. 2001). That necessarily also is our standard when, as here, the district
court did not reach the issue and dismissed on a
ground we do not accept. Melendez must have alleged
“enough facts to state a claim to relief that is plausible

App. 5
on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007); see also FED. R. CIV. P. 12(b)(6). In evaluating claims, we accept all well-pled facts as true and
view all facts in the light most favorable to the plaintiff. Doe ex rel. Magee v. Covington Cnty. Sch. Dist. ex
rel. Keys, 675 F.3d 849, 854 (5th Cir. 2012) (en banc).
We do not give any weight to either party’s legal conclusions. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). We
are not concerned with whether a plaintiff will succeed
but only with whether the complaint states a plausible,
legally cognizable claim. Doe ex rel. Magee, 675 F.3d at
854.
Melendez’s claim is that he is entitled to adjust
status despite undisputed facts that the government
argues make him ineligible. Thus, the issue under Rule
12(b)(6) is one of law. To adjust status, an alien must
(1) have been “inspected and admitted or paroled into
the United States;” (2) “ma[de] an application for . . .
adjustment [of status];” (3) be “eligible to receive an immigrant visa and [be] admissible to the United States
for permanent residence;” and (4) have “an immigrant
visa . . . immediately available to him at the time [the]
application is filed.” 8 U.S.C. § 1255(a).
Section 1255(c) lists those who are barred from eligibility for adjustment of status, including “an alien
(other than an immediate relative as defined in section
1151(b) . . . ) . . . who has failed (other than through no
fault of his own or for technical reasons) to maintain
continuously a lawful status since entry into the
United States.” 8 U.S.C. § 1255(c)(2). It is clear that between the date Melendez began his visa overstay and

App. 6
at least the date he filed for TPS, he was not in lawful
status. Also clear is that the two caveats in Section
1255(c) that we just quoted are inapplicable. The first
applies to an alien who is “an immediate relative,” defined as “the children, spouses, and parents of a citizen
of the United States.” 8 U.S.C. § 1151(b)(2)(A)(i).
Melendez’s brother is the relative. The second applies
if a failure to maintain continuous lawful status after
entry was not the petitioner’s fault. See 8 C.F.R.
§ 1245.1(d)(2). No facts for that here.
Therefore, Melendez’s suit can survive a motion to
dismiss for failure to state a claim only if the grant of
TPS itself removed the ineligibility based on his earlier
unlawful status. That is his argument, which we now
review.
II. Temporary Protected Status
Melendez first recognizes that he is a beneficiary
of the rights that flow from the Attorney General’s designating El Salvador as a foreign state “unable, temporarily, to handle adequately the return” of its nationals
after a series of earthquakes in early 2001. See 8 U.S.C.
1254a(b)(1)(B); Designation of El Salvador Under Temporary Protected Status Program, 66 Fed. Reg. 14,214,
14,214 (Mar. 9, 2001); Termination of the Designation
of El Salvador for Temporary Protected Status, 83 Fed.
Reg. 2,654, 2,655 (Jan. 18, 2018). Second, he acknowledges that generally, in order to receive an adjustment
of status, an alien must “maintain continuously a lawful status since entry into the United States.” 8 U.S.C.

App. 7
§ 1255(c)(2). Melendez has not done so, as he overstayed the visa that permitted his entry in 2000. Nonetheless, he argues that Congress has eliminated that
requirement for those who have been granted TPS.
This contention is based on the following statutory
subsection, entitled “Benefits and status during period
of temporary protected status;”
During a period in which an alien is
granted temporary protected status under
this section –
(1) the alien shall not be considered to
be permanently residing in the United States
under color of law;
(2) the alien may be deemed ineligible
for public assistance by a State . . . or any political subdivision thereof which furnishes
such assistance;
(3) the alien may travel abroad with the
prior consent of the Attorney General; and
(4) for purposes of adjustment of status
under section 1255 of this title and change of
status under section 1258 of this title, the alien shall be considered as being in, and maintaining, lawful status as a nonimmigrant.
8 U.S.C. § 1254a(f ).
Melendez’s focus is on subpart (4), for what it says
and for what it does not. It says that an alien granted
TPS, when seeking an adjustment of status under
Section 1255, is “considered” to be in “lawful status.” It

App. 8
does not mention Section 1255(c)(2) or its requirement
of continuous lawful status after entry. Thus, Melendez
argues, because he had been granted TPS, he is in lawful status notwithstanding Section 1255(c).
This circuit has not previously had to address this
issue. The Eleventh Circuit analyzed a closely related
issue in Serrano v. United States Attorney General, 655
F.3d 1260 (11th Cir. 2011). Even though Serrano had
received TPS, he was not entitled to adjust his status
because he had entered the United States without inspection. Id. at 1263, 1265. The denial of adjustment of
status to someone who had entered without inspection
comes from Section 1255(a). The court held that even
though an alien in TPS has “lawful status as a nonimmigrant” under the provision Melendez also relies on,
the requirement under Section 1255(a) that the alien
have been inspected and admitted or paroled still applied. Id. at 1265.
The Eleventh Circuit recently relied on Serrano
in an appeal presenting the same legal argument
Melendez brings to us. Duron v. Stul, 724 F. App’x 791,
795 (11th Cir. 2018). We agree with that court’s careful
parsing of Section 1254a(f ). As the court explained, the
prefatory phrase for the four subparts of that statute
limits their applicability to the “period in which an alien is granted temporary protected status under this
section.” Id. at 794 (quoting § 1254a). We interpret that
preface to mean that the statute does not alter the legal effect of other periods of an alien’s presence. Therefore, for the period the alien is in TPS, the alien is not
“permanently residing in the United States under

App. 9
color of law;” “may be deemed ineligible for public assistance by a State;” “may travel abroad with the prior
consent of the Attorney General;” and “shall be considered as being in, and maintaining, lawful status as a
nonimmigrant” for purposes of adjustment of status.
Id. Only for the period of the TPS—a temporal limit on
its effect—an alien is “in, and maintaining, lawful status.” The statute does not read that aliens who now
hold TPS should be regarded as “having been in and
maintained” lawful status. What rights and status the
alien had prior to the TPS period are the creatures of
other statutes or rules.1
Melendez recognizes that the difficulty with his
challenge is the reality that for a period of time after
his 2000 entry on a temporary visa, he was not in lawful status. What he needs is for the TPS to eliminate
the relevance of that period of unlawful status. With
that goal, he argues in essence that for purposes of adjustment of status, Section 1254a(f )(4) makes the date
1

DHS interprets Section 1254a(f )(4) in this same way. See
U.S. Dep’t of Justice, Immigration and Naturalization Service,
General Counsel’s Office, Legal Opinion No. 91-27, 1991 WL
1185138 (March 4, 1991) (“Section 244A(f )(4) does not make lawful the alien’s unlawful presence in the United States prior to the
granting of TPS.”); see also Employer Sols. Staffing Grp. II, L.L.C.
v. Office of Chief Admin. Hearing Officer, 833 F.3d 480, 484 (5th
Cir. 2016) (noting that the Department of Justice, Immigration
and Naturalization Service is the “predecessor agency” to DHS).
Throughout his briefing, Melendez principally relies on one
case, Medina v. Beers, 65 F. Supp. 3d 419 (E.D. Pa. 2014). There,
the district judge analyzed these statutes in the manner Melendez
urges. For the reasons we explain, though, we respectfully disagree.

App. 10
of the grant of TPS a new entry. Such an argument has
no statutory support. To the contrary, the fact that
Section 1254a(f ) identifies a finite period in which the
benefits of TPS will operate makes unreasonable any
argument that such status eliminates the effect of any
prior disqualifying acts.
Indeed, we have concluded that should the Attorney General remove a country’s special designation,
an alien in TPS “reverts to any immigration status
that he maintained or was granted while registered for
TPS.” Orellana, 405 F.3d at 365. It is entirely consistent with that contingent consequence that TPS
does not absolve an alien of all prior unlawful conduct.
***
Melendez overstayed his nonimmigrant visitor
visa, accruing time as an alien in unlawful status. That
period made him ineligible for an adjustment of status.
Consequently, as a matter of law, Melendez failed to
state a claim upon which relief can be granted.
The judgment of the district court concluding
there was no jurisdiction is VACATED. We enter judgment that the complaint be DISMISSED with prejudice.

APPENDIX B

App. 11
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
OSCAR ERNESTO
MELENDEZ,
Plaintiff,

§
§
§
§
v.
§
KIRSTJEN M. NIELSEN, §
Secretary of Homeland
§
Security, et al.,
§
Defendants.
§

CIVIL ACTION NO.
H-17-3463

MEMORANDUM AND ORDER
(Filed May 9, 2018)
This case is before the Court on the Motion to Dismiss [Doc. # 10] filed by Defendants Kirstjen M. Nielsen, Secretary of the United States Department of
Homeland Security, Lee F. Cissna, Director of the
United States Citizenship and Immigration Services
(“USCIS”), and Mark Seigl, Houston Field Office Director, USCIS. Defendants argue that the case should be
dismissed pursuant to Rule 12(b)(1) of the Federal
Rules of Civil Procedure for lack of subject matter jurisdiction.1 Plaintiff Oscar Ernesto Melendez filed an
Opposition [Doc. # 11], and Defendants filed a Reply
1

Defendants moved in the alternative for dismissal pursuant to Rule 12(b)(6) for failure to state a claim upon which relief
can be granted. Because the Court lacks subject matter jurisdiction, it need not address the Rule 12(b)(6) aspect of Defendants’
motion.

App. 12
[Doc. # 12]. Having reviewed the record, the applicable
statutes, and the governing legal authorities, the Court
grants the Motion to Dismiss.
I.

BACKGROUND

Plaintiff is a citizen of El Salvador. He entered the
United States on February 7, 2000, with a B1/B2
nonimmigrant visa. Plaintiff ’s visa expired on March
6, 2000, after which he remained in the United States
without lawful status.
On March 9, 2001, the Attorney General of the
United States designated El Salvador under the Temporary Protected Status (“TPS”) program. TPS status
prevents removal of an alien from the United States
during the period of time the alien’s home country is
designated under the TPS program. See 8 U.S.C.
§ 1254a(a)(1)(A), (b)(1). Upon receiving TPS status,
Plaintiff was deemed to be in lawful status. See 8 U.S.C.
§ 125440(4).
On July 11, 2016, Plaintiff submitted a Form I-485
seeking to adjust his status to lawful permanent resident pursuant to 8 U.S.C. § 1255. On September 26,
2017, Plaintiff ’s application was denied because he
had not maintained continuous lawful status since his
entry into the United States.2 See Decision, Exh. to

2

Plaintiff asserts that the “only basis” for the USCIS Decision was that “the agency did not consider TPS as an admission
or inspection” for status adjustment under § 1255(a). See Complaint, ¶ 33. The Decision, however, is based on Plaintiff ’s failure

App. 13
Motion to Dismiss. Under certain conditions, an alien’s
status may be adjusted by the Attorney General, “in
his discretion and under such regulations as he may
prescribe,” to that of an alien lawfully admitted for permanent residence. See 8 U.S.C. § 1255(a). Under regulations governing adjustments to status pursuant to
§ 1255(a), certain categories of aliens are ineligible for
adjustment of status to that of a lawful permanent resident alien. See 8 C.F.R. § 245.1. One such category includes, with certain exceptions:
Any alien who files an application for adjustment of status on or after November 6, 1986,
who has failed (other than through no
fault of his or her own or for technical
reasons) to maintain continuously a lawful status since entry into the United
States. . . .
8 C.F.R. § 245.1(b)(6) (emphasis added). Plaintiff ’s entry into the United States in February 2000 was lawful, but his lawful status ended in March 2000 when
his visa expired. His status became lawful again in
March 2001 when he was granted TPS status.
Although Plaintiff was given notice of his right to
file a Form I-290B, Notice of Appeal or Motion, to challenge the denial of his Form I-485 application for adjusted status, Plaintiff failed to do so. As a result, the
September 2017 Decision became final after thirty calendar days.
to maintain continuous lawful status since his entry into the
United States.

App. 14
On November 13, 2017, Plaintiff filed this Complaint for Declaratory and Injunctive Relief (“Complaint”) [Doc. # 1]. Plaintiff seeks a declaration that the
final Decision to deny his Form I-485 application to adjust status pursuant to § 1255(a) was “arbitrary and
capricious, an abuse of discretion, and otherwise not in
accordance with law.” See Complaint, ¶ 1. Plaintiff asks
the Court to set aside the Decision and to order Defendants to reopen his Form I-485 application for adjusted status.
Defendants filed their Motion to Dismiss, asserting that the Court lacks subject matter jurisdiction to
review the Decision. The Motion to Dismiss has been
fully briefed, and it is now ripe for decision.
II.

RULE 12(b)(1) MOTION TO DISMISS

“A case is properly dismissed for lack of subject
matter jurisdiction when the court lacks the statutory
or constitutional power to adjudicate the case.” Smith
v. Regional Transit Auth., 756 F.3d 340, 347 (5th Cir.
2014) (quoting Krim v. pcOrder.com, Inc., 402 F.3d 489,
494 (5th Cir. 2005)). When the court’s subject matter
jurisdiction is challenged, the party asserting jurisdiction bears the burden of establishing it. See AlabamaCoushatta Tribe of Tex. v. U.S., 757 F.3d 484, 487 (5th
Cir. 2014); Gilbert v. Donahou, 751 F.3d 303, 307 (5th
Cir. 2014).
This Court lacks subject matter jurisdiction pursuant to 8 U.S.C. § 1252(a)(2)(B)(i), which provides:

App. 15
Notwithstanding any other provision of law
(statutory or nonstatutory), including section
2241 of Title 28, or any other habeas corpus
provision, and sections 1361 and 1651 of such
title, and except as provided in subparagraph
(D), . . . no court shall have jurisdiction to review – (i) any judgment regarding the granting of relief under section . . . 1255 of this title.
8 U.S.C. § 1252(a)(2)(B)(i); see also Ayanbadejo v.
Chertoff, 517 F.3d 273, 277 (5th Cir. 2008). Indeed, the
statute makes clear that this Court lacks “jurisdiction
over determinations made with respect to an I-485 application for permanent resident status under § 1255.”
See id. (citing Hadwani v. Gonzales, 445 F.3d 798, 800
(5th Cir. 2006)).
Plaintiff argues that the Court has jurisdiction under the Administrative Procedure Act (“APA”), asserting that the APA provides jurisdiction to review agency
decisions “for which there is no other adequate remedy.” See Opposition, pp. 2-3. Initially, the Court notes
that the reason there arguably is “no other adequate
remedy” is that Plaintiff elected not to pursue his
available remedy through a Form I-290B motion to reopen and reconsider the USCIS Decision. Moreover,
the clear language of § 1252(a)(2)(B)(i) precludes judicial review “notwithstanding any other provision of
law (statutory or nonstatutory).” Additionally, the APA
does not provide a basis for federal question jurisdiction where the statute at issue “precludes judicial review.” See 5 U.S.C. § 701(a); id., § 702 (“Nothing herein
. . . affects other limitations on judicial review”);

App. 16
Webster v. Doe, 486 U.S. 592, 599 (1988) (“Section
701(a), however, limits application of the entire APA to
situations in which judicial review is not precluded by
statute”); Lundeen v. Mineta, 291 F.3d 300, 304 (5th
Cir. 2002) (“The APA expresses a broad exception, however, to its general rule: courts may not review an
agency action when the “(1) statutes preclude judicial
review”). Section 1252(a)(2)(B)(i) precludes judicial review of decisions made with respect to an I-485 application for permanent resident status under § 1255
and, therefore, the APA does not provide this Court
with jurisdiction.
Plaintiff argues also that he is challenging the legal conclusions in the Decision, not any discretionary
rulings. Indeed, “constitutional claims or questions of
law” related to claims under § 1252(a)(2)(B) are excluded from the category of non-reviewable decisions
left to the discretion of the Attorney General. See 8
U.S.C. § 1252(a)(2)(D); Ayanbadejo, 517 F.3d at 277
n.11. That provision, however, does not provide this
Court with jurisdiction. Instead, the issues subject to
the § 1252(a)(2)(D) exception must be presented “upon
a petition for review filed with an appropriate court of
appeals in accordance with this section.” See 8 U.S.C.
§ 1252(a)(2)(D) (emphasis added). Consequently, any
jurisdiction to review the USCIS Decision based on
“constitutional claims or questions of law” lies with the
Court of Appeals and not with the district court.
This Court lacks subject matter jurisdiction over
Plaintiff ’s Complaint seeking review of the USCIS decision denying his I-485 application for permanent

App. 17
resident status under § 1255. As a result, the case
must be dismissed pursuant to Rule 12(b)(1) of the
Federal Rules of Civil Procedure.
III. CONCLUSION AND ORDER
Pursuant to 8 U.S.C. § 1252(a)(2)(B)(i), and the
Fifth Circuit’s holding in Ayanbadejo, this Court lacks
subject matter jurisdiction to review the denial of
Plaintiff ’s Form I-485 application seeking to adjust his
immigration status to lawful permanent resident. As a
result, it is hereby
ORDERED that the Motion to Dismiss [Doc. # 10]
is GRANTED and this case is DISMISSED for lack
of subject matter jurisdiction. The Court will issue a
separate Final Order.
SIGNED at Houston, Texas, this 9th day of May,
2018.
/s/ Nancy F. Atlas
NANCY F. ATLAS
SENIOR UNITED STATES
DISTRICT JUDGE

APPENDIX C

App. 18
U.S. Department of Homeland Security
U.S. Citizenship and Immigration Services
Houston Field Office.
810 Gears Road. Ste 100
Houston. TX 77067
[SEAL] U.S. Citizenship
and Immigration Services
Date SEP 26 2017
Oscar Melendez
4614 Colchester Way
Missouri City, TX 77459

A094154542
MSC1691368383

DECISION
Dear Oscar Melendez:
Thank you for submitting Form I-485, Application to
Register Permanent Residence or Adjust Status, to
U.S. Citizenship and Immigration Services (USCIS)
under section 245 of the Immigration and Nationality
Act (INA).
After a thorough review of your application and supporting documents, and your testimony during your interview, unfortunately, we must inform you that we are
denying your application for the following reason(s).
Generally, to qualify for adjustment under INA 245, an
applicant must:
•

Be inspected and admitted or paroled into the
United States;

•

Be eligible to receive an immigrant visa;

App. 19
•

Be admissible to the United States for permanent residence; and

•

Have an immigrant visa immediately available at the time the application is filed.
Statement of Facts and Analysis,
Including Ground(s) for Denial

You filed Form I-485 based on being the beneficiary of
an immigrant petition.
USCIS received your Form I-485 on July 11, 2016 and
on September 15, 2017, you appeared for an interview
to determine your eligibility for adjustment of status.
During the interview and review of your application
with an Immigration Services Officer, you testified that
the information on your Form I-485, along with any
amendments made during the adjustment interview,
and supporting documents were true and correct.
You are ineligible for adjustment of status under INA
245. Documentary evidence establishes that you have
failed to continuously maintain a lawful status since
entry into the United States. Specificially [sic], from
March 6, 2000 (the expiration of your B1/B2 visa until
your original filing of TPS (Temporary Protected Status) on August 13, 2001 you did not maintain lawful
status. INA 245(c)(2) and 8 CFR 245.1(b)(6) establish
that any alien who files an application for adjustment
of status on or after November 6, 1986, who has failed
(other than through no fault of his or her own or for
technical reasons) to maintain continuouisly [sic] a
lawful status since entry into the United States, except

App. 20
an applicant who is an immediate relative as defined
in section 201(b) of the Act or a special immigrant as
defined in section 101(a)(27)(H), (I), or (J) of the Act is
ineligible for adjustment of status under INA 245.
The evidence of record shows that currently, you were
lawfully present in the United States in a Temporary
Protected Status (TPS). Your period of authorized stay
in this status depends on annual re-registration or renewal of temporary treatment benefits. You are authorized to remain in the United States until the
conclusion of your TPS status However, you must continue to comply with all the conditions that apply to
your TPS status. You may not appeal this decision.
However, if you believe that the denial of your Form I485 is in error, you may file a motion to reopen or a
motion to reconsider using Form I-290B, Notice of Appeal or Motion. You must submit Form I-290B within
30 calendar days of service of this decision (33 days if
the decision was mailed). If USCIS does not receive the
motion to reopen or reconsider within the required period, this decision will become final. See Title 8, Code
of Federal Regulations (8 CFR), sections 103.5 and
103.8(b). Note: You must follow the most current filing
instructions for Form I-290B, which can be found at
www.uscis.gov.
To access Form I-290B or if you need additional information, please visit the USCIS Web site at
www.uscis.gov or call our National Customer Service
Center toll free at 1-800-375-5283. You may also contact the USCIS office having jurisdiction over your current place of residence.

App. 21
Please refer to “Attachment A,” for information pertaining to the status of any employment authorization
document and/or advance parole document issued to
you based upon this Form I-485.
Sincerely,
/s/ Mark Siegl
Mark Siegl
Field Office Director
cc: Ricardo Tapia
Attorney
2200 Southwest Fwy, STE 550
Houston, TX 77098
[Attachments Omitted]

